App. 1
PUBLISH
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
---------------------------------------------------------------------------------------------------------------------------------------------

AMBER BROOKS;
JAMIE GALE,
Plaintiffs - Appellants,
No. 19-3240

v.
MENTOR WORLDWIDE LLC,
Defendant - Appellee.

---------------------------------------------------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the District of Kansas
(D.C. No. 2:19-CV-02088-KHV-TJJ)
---------------------------------------------------------------------------------------------------------------------------------------------

(Filed Jan. 26, 2021)
Anthony A.B. Dogali (Barbara U. Uberoi with him on
the briefs), Dogali Law Group, P.A., Tampa, Florida, for
Plaintiffs-Appellants.
Dustin B. Rawlin (Jeffrey C. Sindelar, Jr. with him on
the brief ), Tucker Ellis LLP, Cleveland, Ohio, for Defendant-Appellee.
---------------------------------------------------------------------------------------------------------------------------------------------

Before HARTZ, PHILLIPS, and CARSON, Circuit
Judges.

App. 2
---------------------------------------------------------------------------------------------------------------------------------------------

CARSON, Circuit Judge.
---------------------------------------------------------------------------------------------------------------------------------------------

As is its prerogative, Congress heavily regulates
the production and use of medical devices. In doing so,
Congress has introduced federal law to an area state
law, alone, once governed. That introduction of federal
law has left, by both express and implied preemption,
only a narrow gap within which a plaintiff can plead a
tort claim arising from the failure of a medical device.
Successful pleading requires navigating a legal quagmire that has consumed unwary legal professionals for
more than forty years. Today we again wade into that
quagmire.
Plaintiffs Amber Brooks and Jamie Gale brought
tort claims based on injuries they sustained when their
breast implants began deteriorating. The district court
found that they failed to state a claim upon which relief could be granted and dismissed their Complaint
with prejudice. Plaintiffs ask us to reverse the district
court’s dismissal. We agree with the district court that
federal law preempts some of Plaintiffs’ claims and
that Plaintiffs insufficiently pleaded the rest. Therefore, exercising jurisdiction under 28 U.S.C. § 1291, we
affirm.
I.
In 1976, Congress passed the Medical Device
Amendments (MDA) to the Federal Food, Drug, and

App. 3
Cosmetics Act (FDCA). Riegel v. Medtronic, Inc., 552
U.S. 312, 316 (2008). Through that legislation, Congress standardized and regulated the safety and effectiveness of medical devices. Id. at 315–16. Class III
devices—those subject to the strictest controls—must
go through a premarket approval (PMA) process, administered by the Food and Drug Administration
(FDA). Id. at 317. The PMA process begins with a rigorous application, involving extensive research and
testing and usually requiring a multi-volume submission. Id. The approval process may last years, consuming over 1,200 hours of agency review time on average,
and often requires that the manufacturer continue to
study and report information about the device during
and after approval. Id. at 317–18. The FDA may refer
the application to a panel of experts or require further
data from the manufacturer. Id. Only upon “reasonable
assurance” of the device’s safety and effectiveness,
weighing any probable benefit to health against any
probable risk of injury or illness, may the FDA approve
a Class III device. Id. at 318. Part of every PMA review
involves warnings and labeling. Id. And the FDA may
only approve labels and warnings if it determines they
are not false or misleading. Id. The FDA may condition premarket approval on adherence to performance standards, restrictions on sale or distribution,
or further research. See id. at 319. After approval, a
manufacturer may not change “design specifications,
manufacturing processes, labeling, or any other attribute, that would affect safety or effectiveness.” Id. Furthermore, the FDA may subject approved devices to
ongoing reporting obligations and can revoke approval

App. 4
based on new or existing data and must do so when “it
determines that a device is unsafe or ineffective.” Id. at
319–20.
Because this case comes to us at the motion-todismiss phase, we take the facts from the Complaint.
In 2003, Defendant Mentor Worldwide LLC submitted its application for premarket approval of the
“MemoryGel” silicone breast implant. Almost three
years later, the FDA granted approval subject to Defendant conducting a range of post-approval studies.
Defendant failed to properly conduct these studies and
to report their results in a variety of ways. These failures included low follow-up rates and high drop-out
rates for the studies, failure to collect data, failure to
report data, reporting inconsistent data, lack of adequate sample sizes in studies, inadequate summarization of findings and results, failure to update labeling
in accordance with findings, and omitting information
about study methodology. Defendant also failed to fulfill reporting obligations that were not tied to specific
post-approval studies and, while the PMA application
was pending, whistleblowers alleged that Defendant
had been fraudulent in its reporting.
In the years before the PMA process, Defendant
manufactured and used MemoryGel implants for
clinical testing, under an “investigational device exemption,” granted by the FDA. During this period,
whistleblower complaints led to a federal investigation
of Defendant’s Texas manufacturing facility. The investigation resulted in a consent decree under which
Defendant agreed to remedy specific deficiencies and

App. 5
conduct future operations in accordance with federal
law and the FDA’s “quality system regulation” for manufacturing standards.
After Defendant completed the PMA process,
Plaintiffs received MemoryGel implants. Both soon felt
negative effects. Gale developed various symptoms
and health problems. Brooks experienced even more
symptoms and problems. Physicians eventually removed both Plaintiffs’ implants. Gale’s implants had
both leaked. Brooks’s implants apparently leaked as
well. Upon removal of the implants, some of Plaintiffs’
symptoms went away, some diminished in severity, and
others remained.
Plaintiffs filed their Complaint in the United
States District Court for the District of Kansas. Defendant moved to dismiss the Complaint for failure to
state a claim. The district court dismissed the case
with prejudice. See Fed. R. Civ. P. 41(b). The district
court found that federal law preempted all of Plaintiffs’
claims and, in any event, Plaintiffs failed to sufficiently
plead their claims. The district court also determined
that Missouri law, rather than Kansas law, applied to
Brooks’s claims and denied Plaintiffs’ request for leave
to amend their Complaint.
II.
This case presents two discrete issues. First,
whether the district court erred in granting Defendant’s motion to dismiss for failure to state a claim. We
review this decision de novo, Wasatch Equality v. Alta

App. 6
Ski Lifts Co., 820 F.3d 381, 386 (10th Cir. 2016), including the district court’s rulings on preemption, Cerveny
v. Aventis, Inc., 855 F.3d 1091, 1096 (10th Cir. 2017).
And second, whether the district court erred in declining to grant Plaintiffs leave to amend their Complaint.
We review this decision for an abuse of discretion.
Warnick v. Cooley, 895 F.3d 746, 754 (10th Cir. 2018).
III.
In their Complaint, Plaintiffs sought to plead
claims for failure to warn and manufacturing defect,
sounding in ordinary negligence, negligence per se, and
strict liability. For the reasons below, we conclude that
federal law preempts their negligence per se claims
and their failure-to-warn claims that sound in ordinary negligence and strict liability. We further hold
Plaintiffs insufficiently pleaded their ordinary negligence and strict liability claims for manufacturing defect.
A.
The FDCA and MDA contain two preemption provisions relevant here.1 The first provides for express
preemption of certain state laws:
1

Plaintiffs assert that the district court erred in finding that
Missouri law, rather than Kansas law, governs Brooks’s tort
claims. When a federal court exercises subject-matter jurisdiction
based on 28 U.S.C. § 1332, it applies the substantive law of the
state in which it sits, including that state’s choice-of-law principles. Pepsi-Cola Bottling Co. of Pittsburg, Inc., v. PepsiCo, Inc.,

App. 7
(a) Except as provided in subsection (b), no
State or political subdivision of a State may
establish or continue in effect with respect to
a device intended for human use any requirement—
(1) which is different from, or in addition to, any requirement applicable under
this chapter to the device, and
(2) which relates to the safety or effectiveness of the device or to any other matter included in a requirement applicable
to the device under this chapter.
21 U.S.C. § 360k. The Supreme Court established a
two-part test to evaluate a claim for express preemption. Riegel v. Medtronic, Inc., 552 U.S. 312, 321–22
431 F.3d 1241, 1255 (10th Cir. 2005). Thus, the United States
District Court for the District of Kansas applies Kansas’s choiceof-law principles. Where an act or omission in one state leads to
an injury in another state, Kansas applies the law of the state
where the injury occurred. Ling v. Jan’s Liquors, 703 P.2d 731,
735 (Kan. 1985) (rejecting the “most-significant-relationship” test
and holding that Kansas law controlled where an event in Missouri led to injury in Kansas). The district court determined that,
although Brooks’s operation occurred in Kansas, she alleged that
the resulting injuries arose in Missouri. Therefore, the district
court said, under Kansas’s choice-of-law rules Missouri law applies to Brooks’s claims.
Although Plaintiffs urge this as a potential error, we need not
decide which state’s law applies because either would reach the
same result below regardless. We do not couch the discussion in
this section of our opinion in terms of either state’s law, and our
analysis does not depend on which state’s law applies. Rather,
we look to Plaintiffs’ Complaint and conclude that federal law
preempts their claims as stated.

App. 8
(2008). First, we must ask “whether the federal government has established requirements applicable to” the
implants. Id. at 321. The parties do not dispute that the
MDA applies to the implants.2 Second, we must determine whether the state-law claims impose a requirement that relates to the safety or effectiveness of the
implant and differs from or adds to the federal requirements. Id. at 321–22. Federal law preempts a tort claim
“unless the federal requirements impose duties that
are at least as broad as those” imposed by the state law.
Caplinger v. Medtronic, Inc., 784 F.3d 1335, 1340 (10th
Cir. 2015).
The second preemption statute provides that
Except as provided in subsection (b), all such
proceedings for the enforcement, or to restrain violations, of this chapter shall be by
and in the name of the United States. . . .
21 U.S.C. § 337. Interpreting and applying this requirement is easier than the first. “Congress intended
that the MDA be enforced exclusively by the Federal
Government.” Buckman Co. v. Plaintiffs’ Legal Comm.,
531 U.S. 341, 352 (2001). Thus, the FDCA preempts
“any state tort claim that exists ‘solely by virtue’ of
an FDCA violation.” Caplinger, 784 F.3d at 1339
(quoting Buckman, 531 U.S. at 353). Along with express preemption, this implied preemption provision
2

In any event, these implants have endured the premarket
approval process, which subjects them to federal requirements.
See Caplinger v. Medtronic, Inc., 784 F.3d 1335, 1340 (10th Cir.
2015).

App. 9
leaves only a narrow gap of possible state tort claims.
Any such claim must be predicated on conduct that violates the FDCA but may not be brought solely because
that conduct violates the FDCA—the conduct must
also violate a parallel state-law requirement.
Put differently, to survive preemption, a plaintiff
must plead conduct that (1) violates the FDCA (because state law may not impose additional or different
duties) and (2) would be actionable under state law independently of the FDCA (because a plaintiff may not
seek to enforce the FDCA). See In re Medtronic, Inc.,
Sprint Fidelis Leads Prods. Liab. Litig., 623 F.3d 1200,
1204 (8th Cir. 2010) (internal citation omitted). And
when the pleader misses the gap—that is, when federal law preempts a claim—the court should dismiss
that claim. See Caplinger, 784 F.3d at 1337, 1347.
1.
We first address Plaintiffs’ negligence per se theory. Insofar as the Complaint alleged failure-to-warn
or manufacturing-defect claims based on negligence
per se, federal law preempts those claims. Congress
and the courts have clearly defined the narrow gap: a
plaintiff may sue under a state-law cause of action for
conduct that violates the MDA but not because that
conduct violates the MDA. When we ask whether liability under negligence per se exists independently
under state law, regardless of the FDCA or MDA, we
must answer “no.” See Buckman, 531 U.S. at 353.
Plaintiffs’ negligence per se theory relies on a federal

App. 10
requirement to supply the duty of care and looks to a
violation of the requirement as the breach of that duty.
See id. Any negligence per se action premised on an
MDA violation necessarily seeks to enforce the MDA
rather than a parallel state-law duty. And only the
United States may enforce the MDA. 21 U.S.C.
§ 337(a); id. at 349 n.4.
Furthermore, negligence per se premised on a violation of the MDA lacks viability under the laws of either Kansas or Missouri. Kansas law limits negligence
per se to violations of a statute for which the legislature intended to create a private cause of action. Cullip
ex rel. Pitts v. Domann ex rel. Domann, 972 P.2d 776,
782 (Kan. 1999); Rhoten v. Dickson, 223 P.3d 786, 803
(Kan. 2010). Similarly, Missouri law limits negligence
per se to violations of a statute where the legislature
intended to replace the ordinary negligence standard
of care. Lowdermilk v. Vescovo Bldg. & Realty Co., Inc.,
91 S.W.3d 617, 629 (Mo. Ct. App. 2002); J.J.’s Bar &
Grill, Inc. v. Time Warner Cable Midwest, LLC, 539
S.W.3d 849, 869 (Mo. Ct. App. 2017). The MDA’s text
tells us that Congress created no private cause of action in the MDA, and Buckman tells us that Congress
did not intend the MDA to supplant state-law duties of
care. 21 U.S.C. § 337(a); 531 U.S. at 352–53. For these
reasons, we conclude that the district court properly
dismissed Plaintiffs’ negligence per se theory.

App. 11
2.
This leaves ordinary negligence and strict liability
for failure to warn. The district court found, and we
agree, that Plaintiffs sought to allege that Defendant
breached a duty to warn (1) patients, (2) physicians,
and (3) the FDA about the implants’ health risks. Like
the district court, we conclude that federal law preempts these claims.
First, Plaintiffs identify no federal requirement
that a Class III-device manufacturer provide a warning directly to a patient. Plaintiffs’ briefing addresses
preemption in vague, general, and largely historical
terms but never nails down a specific argument about
any of their claims. We are under no obligation to
“search[ ] out theories and authorities [Plaintiffs] have
not presented for [themselves].” Caplinger, 784 F.3d at
1342. And we have expressed particular hesitation to
do so in this area of law where “there exists so much
risk of going astray.” Id. Because Plaintiffs have not offered—and we will not seek out—a federal requirement to warn patients, any state-law duty to do so adds
to the federal scheme as it is before us. Id. at 1341. Federal law expressly preempts any such addition. Id.
Next, Plaintiffs alleged that Defendant had a duty
to warn physicians directly by updating its warning labels. But just as above, Plaintiffs fail to identify a federal requirement that Defendant do so. In fact, a Class
III device manufacturer ordinarily may not change or
update its warning labels and package inserts without
prior FDA approval. 21 U.S.C. § 360e(d); Caplinger, 784

App. 12
F.3d at 1341. Defendant could have changed its labeling without FDA approval by a permissive mechanism, but that mechanism is not mandatory. 21 C.F.R.
§ 814.39. It allows, but does not require, a change.
McMullen v. Medtronic, Inc., 421 F.3d 482, 489 (7th Cir.
2005). And absent a federal requirement that they do
so, federal law expressly preempts any state-law duty
requiring a manufacturer to update its labeling. In re
Medtronic, 623 F.3d at 1205; Caplinger, 784 F.3d at
1341.
Finally, Plaintiffs alleged that Defendant violated
its duty to warn the FDA. They claim that Defendant
did not properly conduct post-approval, FDA-mandated
testing and report negative results. Plaintiffs also theorize that this reporting would have indirectly warned
physicians of the implants’ dangers. But Plaintiffs
have not identified a state-law duty to comply with
FDA-imposed post-approval requirements such as
testing and reporting. Buckman made clear that only
the federal government may enforce reporting requirements and investigate and respond to suspected fraud.
531 F.3d at 348–49. Similarly, the government retains
the exclusive right to enforce post-approval requirements for continued testing, including the right to
revoke approval for noncompliance. See id.; 21 C.F.R.
§ 814.82(c). Federal law thus impliedly preempts
Plaintiffs’ claims based on alleged failures to properly
conduct post-approval testing and reporting as attempts to enforce the MDA. 21 U.S.C. § 337(a); Buckman, 531 U.S. at 348–49; Caplinger, 784 F.3d at 1339.

App. 13
As a result, the district court properly dismissed Plaintiffs’ failure-to-warn claims.
B.
We turn now to the remaining manufacturing-defect claims. We use the Iqbal/Twombly standard to determine whether Plaintiffs have stated a plausible
claim. Brown v. Montoya, 662 F.3d 1152, 1162–63 (10th
Cir. 2011). In applying this standard, we take Plaintiffs’ well-pleaded facts as true, view them in the light
most favorable to Plaintiffs, and draw all reasonable
inferences from the facts in favor of Plaintiffs. Id. at
1162. A plausible claim includes facts from which we
may reasonably infer Defendant’s liability. Id. at 1163.
Plaintiffs must nudge the claim across the line from
conceivable or speculative to plausible. Id. Allegations
that are “ ‘merely consistent with’ a defendant’s liability” stop short of that line. Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009) (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 557 (2007)). Labels, conclusions, formulaic
recitations of elements, and naked assertions will not
suffice. Id. An allegation is conclusory where it states
an inference without stating underlying facts or is devoid of any factual enhancement. Kellum v. Mares, 657
Fed. App’x 763, 770 (10th Cir. 2016) (unpublished) (citing Black’s Law Dictionary (10th ed. 2014)).3 Conclusory allegations are “not entitled to the assumption of
3

See also Camasta v. Jos. A. Bank Clothiers, Inc., 761 F.3d
732, 740 (7th Cir. 2014); McCauley v. City of Chicago, 671 F.3d
611, 622–23 (7th Cir. 2011) (Hamilton, J., dissenting in part).

App. 14
truth.” Khalik v. United Air Lines, 671 F.3d 1188, 1193
(10th Cir. 2012). In fact, we disregard conclusory statements and look to the remaining factual allegations to
see whether Plaintiffs have stated a plausible claim.
Waller v. City & Cnty. of Denver, 932 F.3d 1277, 1282
(10th Cir. 2019). We must draw on our experience and
common sense in evaluating the plausibility of a claim.
Iqbal, 556 U.S. at 679. The degree of specificity needed
to establish plausibility and provide fair notice depends on the context and the type of case. Id.; Robbins
v. Oklahoma, 519 F.3d 1242, 1248 (10th Cir. 2008).
Plaintiffs fail to allege facts reflecting any negligence in the manufacturing of the implant or that the
implant was, in fact, defective. Although the Complaint
spins a wide-reaching story of noncompliance with
FDA regulations and requirements, bad conduct, whistle-blower complaints, misrepresented data, and other
horrors, it does little to support this highly conclusory
story with specific facts. Bald accusations such as “defendant violated the law,” “defendant failed to exercise
reasonable care,” and the like will not support a claim
for relief. Iqbal, 556 U.S. at 679 (“While legal conclusions can provide the framework of a complaint, they
must be supported by factual allegations.”). Plaintiffs
do allege largely historical facts that almost entirely
deal with indiscretions in conducting studies and reporting results. But these factual allegations do not
touch on any specific flaw in the manufacturing process relevant to Plaintiffs’ own implants. Nor does
Plaintiffs’ 38-page, 201-paragraph Complaint describe
a particular flaw in the specific implants they received.

App. 15
In the Complaint, Plaintiffs conclude that the implants “differed from the specifications agreed to by
the FDA” and “used materials and components which
differed from those approved by the FDA,” without alleging any supporting facts. They also conclude that
Defendant (1) “fail[ed] to follow good manufacturing
practices,” (2) had “not complied with applicable federal regulations” and “fail[ed] to adhere to manufacturing protocols approved by the FDA,” (3) “carelessly and
negligently s[old] and distribut[ed]” the implants “in
violation of ” federal law, “negligently incorporate[ed]
components and/or materials” that were not “commercially reasonable” and “could not stand up to normal
usage,” and “fail[ed] to exercise reasonable care in inspecting and testing . . . manufacturing, quality control
and quality assurance processes.” Plaintiffs did not
plead factual allegations to support these or any of
their other conclusions, and thus they cannot sustain
a claim for relief.
Given the lack of factual allegations relevant to
their manufacturing-defect claims and the conclusory
nature of the Complaint regarding those claims, we
agree with the district court that Plaintiffs have not
adequately pleaded these claims. The district court,
therefore, properly dismissed the manufacturingdefect claims.
IV.
Finally, Plaintiffs argue that the district court
erred in denying their request “that the dismissal be

App. 16
entered without prejudice to provide them with an
opportunity to amend.” Plaintiffs included this onesentence request at the end of their response to Defendant’s motion to dismiss. But Plaintiffs did not comply with District of Kansas Local Rule 15.1 (requiring
that the proposed pleading be attached to a motion for
leave to amend) and did not explain how any amendment would relate to the preemption issue. So the district court declined to grant leave to amend and
granted Defendant’s motion to dismiss with prejudice.
To find an abuse of discretion, we must conclude that
this decision was “arbitrary, capricious, whimsical, or
manifestly unreasonable.” Bylin v. Billings, 568 F.3d
1224, 1229 (10th Cir. 2009) (quoting Orr v. City of Albuquerque, 417 F.3d 1144, 1153 (10th Cir. 2005)).
Federal Rule of Civil Procedure 15(a)(1) provides
that a plaintiff may amend its complaint as a matter
of right within 21 days after a defendant serves a Rule
12(b) motion. By this mechanism, a plaintiff can seek
to cure any defect identified in the motion. But Plaintiffs declined to take this course. After expiration of the
time to amend as a matter of right, Plaintiffs could
have formally moved for leave to amend in compliance
with the applicable Federal Rules and Local Rule 15.1.
But they did not. They chose, instead, to make a onesentence request in their response to the motion to dismiss. Plaintiffs argue that such bare requests “serve an
important function, in that a party is able to make a
general request without being placed in a difficult situation of diluting their primary position.” Opening Br.
37. Here, Plaintiffs apparently took the “primary

App. 17
position” that their original Complaint could survive
the motion to dismiss.
We have long held that bare requests for leave to
amend do not rise to the status of a motion and do not
put the issue before the district court. Glenn v. First
Nat. Bank in Grand Junction, 868 F.2d 368, 370–71
(10th Cir. 1989) (“A naked request for leave to amend
asked for as alternative relief when a party has the unexercised right to amend is not sufficient.”). Such
“shot[s] in the dark” do not request “an order contemplated under the rules,” do not state any particular
grounds for the request, and lack basis. Id. at 370. “A
court need not grant leave to amend when a party fails
to file a formal motion.” Calderon v. Kan. Dep’t of Soc.
& Rehab. Servs., 181 F.3d 1180, 1186 (10th Cir. 1999)
(also recognizing the importance of compliance with local rules). Furthermore, any request for a court order,
such as a request for leave to amend, must state with
particularity the grounds for the order. Id. (citing Fed.
R. Civ. P. 7(b)(1)). Because we do not recognize Plaintiffs’ single sentence as a cognizable motion, the district court did not abuse its discretion in denying that
request. See Glenn, 868 F.2d at 371; Calderon, 181 F.3d
at 1186–87 (“a request for leave to amend must give
adequate notice to the district court and to the opposing party of the basis of the proposed amendment before the court is required to recognize that a motion for
leave to amend is before it”); see also Warnick, 895 F.3d
at 755 (finding no abuse of discretion where a plaintiff
merely suggested she should be allowed to amend and
violated D. Kan. Local Rule 15.1).

App. 18
Our precedent also requires that to amend a
pleading after the dismissal of a case, a party must
first move to reopen the case under Federal Rule of
Civil Procedure 59(e) or 60(b) and then move for leave
to amend under Rule 15 in accordance with the Rule 7
standard. Calderon, 181 F.3d at 1185. But Plaintiffs
did not take this route either. They argue that this
“process places [a] significant burden on the plaintiffs”
and “creates a due process issue.” Opening Br. 37. This
underdeveloped argument constitutes a perfunctory
invitation to explore a possible constitutional issue embedded in the Federal Rules of Civil Procedure. Because Plaintiffs did not raise it before the district court
and did not adequately develop it on appeal, we will
not accept that invitation. See Bronson v. Swensen, 500
F.3d 1099, 1104 (10th Cir. 2007). Plaintiffs made a strategic choice to stand by their “primary position” and
took none of the available avenues to amend their
Complaint. We will not protect them from their own inaction. See Glenn, 868 F.2d at 371. The district court
did not abuse its discretion in denying Plaintiffs’ request.
AFFIRMED.

App. 19
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
AMBER BROOKS
and JAMIE GALE

)
)
)
Plaintiffs,
) CIVIL ACTION
v.
) No. 19-2088-KHV
MENTOR WORLDWIDE, LLC, )
)
Defendant.
)
MEMORANDUM AND ORDER
(Filed Sep. 23, 2019)
On February 14, 2019, Amber Brooks and Jamie
Gale filed suit against Mentor Worldwide, LLC. Complaint (Doc. #1). Plaintiffs allege that Mentor manufactured and sold defective silicone breast implants which
injured plaintiffs. Plaintiffs sue Mentor under several
theories: negligence and negligence per se based on
manufacturing defects and a failure to warn (Count 1),
strict products liability based on failure to warn (Count
2) and strict products liability based on manufacturing
defects (Count 3). This matter is before the Court on
Mentor’s Rule 12(b)(6) Motion To Dismiss Plaintiffs’

App. 20
Complaint (Doc. #10) filed April 15, 2019.1 For reasons
stated below, the Court sustains Mentor’s motion.2
Factual Background
Highly summarized, plaintiffs’ complaint alleges
the following:
In 1976, Congress passed the Medical Device
Amendments (“MDA”) to the federal Food Drug and
Cosmetic Act (“FDCA”). Under the MDA, certain medical devices are subject to regulation depending on
1

Citing Fed. R. Civ. P. 12(g)(2), plaintiff Brooks asserts that
the Court should not consider this motion because three minutes
before Mentor filed its motion to dismiss, it filed a motion to sever
and a motion to transfer or dismiss Brooks’ claims for improper
venue. The Court acknowledges this argument but finds that for
the purposes of judicial efficiency, these matters are properly
raised and should be decided at this stage. AK Steel Corp. v. PAC
Operating Ltd. P’ship, No. 15-9260-CM, 2018 WL 4184928, at *3
(D. Kan. Aug. 31, 2018) (considering motion to dismiss even
though defendant did not raise arguments in prior motion to dismiss); see Albers v. Bd. of Cty. Comm’rs of Jefferson Cty., Colo.,
771 F.3d 697, 704 (10th Cir. 2014) (even if successive motion did
not satisfy Rule 12(g)(2) requirements, error harmless because
movant could present argument in motion for judgment on pleadings).
2
In response to Mentor’s motion to dismiss, plaintiffs request that if the Court dismisses their claims, dismissal should
be without prejudice to provide them an opportunity to amend.
Opposition To Defendant Mentor Worldwide LLC’s Rule 12(b)(6)
Motion To Dismiss (Doc. #16) at 15. Local Rule 15.1 sets forth
specific requirements for amending complaints. Because plaintiffs did not comply with these requirements and do not explain
how any purported amendments would relate to the issue of
preemption, the Court does not grant plaintiffs leave to amend at
this time.

App. 21
their classification. The FDA eventually classified silicone gel-filled breast implants as Class III devices.
Among other requirements, the FDCA required manufacturers of these implants to submit pre-market approval applications (“PMAs”) with data showing a
reasonable assurance of safety and effectiveness. Although it initially denied pre-market approval, the FDA
approved Mentor’s PMA on November 17, 2006. The
FDA conditioned its approval on Mentor conducting
six post-approval studies to further assure the safety
of the devices. For a variety of reasons, Mentor did not
properly conduct these studies, or report negative test
results to the FDA.
On September 11, 2009, Jamie Gale received Mentor silicone gel breast implants. After receiving them,
she began to experience health problems, including
skin rashes, inflammation, fatigue, brain fog, aching,
weight gain, hair loss, gastrointestinal issues, rising
blood pressure, food allergies, severe hearing loss and
dry eyes. On May 24, 2017, an MRI showed extracapsular silicone around both implants. On July 25, 2017,
Gale had the implants surgically removed. After that,
some of her symptoms and conditions improved or disappeared, while others remained.
Amber Brooks received Mentor silicone gel breast
implants on March 4, 2016. After the surgery, Brooks
also began to experience health issues, including muscle and joint pain, fatigue, vaginal infections, dry eyes
and blurry vision, weight loss, enlarged tonsils, rashes,
fevers and chills, insomnia, chest pain, constipation
and dizziness. Approximately six months later, she was

App. 22
hospitalized for sepsis and a life-threatening staph
infection. On February 17, 2017, Brooks had her implants surgically removed. After that, some of her
symptoms and conditions improved or disappeared,
while others remained.
Plaintiffs allege that Mentor’s breast implants
caused their injuries. Plaintiffs sue Mentor under several theories: negligence and negligence per se based
on manufacturing defects and failure to warn (Count
1), strict products liability based on failure to warn
(Count 2) and strict products liability based on manufacturing defects (Count 3).
Legal Standards
In ruling on a motion to dismiss under Rule
12(b)(6), Fed. R. Civ. P., the Court assumes as true all
well-pleaded factual allegations and determines
whether they plausibly give rise to an entitlement of
relief. Ashcroft v. Iqbal, 556 U.S. 662, 679 (2009). To
survive a motion to dismiss, a complaint must contain
sufficient factual matter to state a claim which is plausible—and not merely conceivable—on its face. Id. at
679-80; Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555
(2007). To determine whether a complaint states a
plausible claim for relief, the Court draws on its judicial experience and common sense. Iqbal, 556 U.S. at
679. Plaintiffs make a facially plausible claim when
they plead factual content from which the Court can
reasonably infer that defendant is liable for the misconduct alleged. Id. at 678. However, plaintiffs must

App. 23
show more than a sheer possibility that defendant has
acted unlawfully—it is not enough to plead facts that
are “merely consistent with” defendant’s liability. Id.
(quoting Twombly, 550 U.S. at 557). Where the wellpleaded facts do not permit the Court to infer more
than the mere possibility of misconduct, the complaint
has alleged—but has not “shown”—that the pleader is
entitled to relief. Id. at 679. The degree of specificity
necessary to establish plausibility and fair notice depends on context; what constitutes fair notice under
Fed. R. Civ. P. 8(a)(2) depends on the type of case. Robbins v. Okla., 519 F.3d 1242, 1248 (10th Cir. 2008).
The Court need not accept as true those allegations which state only legal conclusions. See Iqbal, 556
U.S. at 678; Hall v. Bellmon, 935 F.2d 1106, 1110 (10th
Cir. 1991). Rather, plaintiffs bear the burden of framing their complaint with enough factual matter to suggest that they are entitled to relief; it is not enough to
make threadbare recitals of a cause of action accompanied by conclusory statements. Twombly, 550 U.S. at
556. A pleading that offers labels and conclusions, a
formulaic recitation of the elements of a cause of action
or naked assertions devoid of further factual enhancement will not stand. Iqbal, 556 U.S. at 678.
Analysis
I.

Applicable Law

Because this is a diversity case, the Court will apply federal procedural law and the substantive law
that the forum state would apply. See Sylvia v. Wisler,

App. 24
No. 13-02534-EFM, 2019 WL 1384296, at *2 (D. Kan.
Mar. 27, 2019) (citing Evans v. Orion Ethanol, Inc., No.
09-1245-MLB, 2011 WL 2516929, at *1 (D. Kan. June
23, 2011)); see also Burnham v. Humphrey Hosp. Reit
Trust, Inc., 403 F.3d 709, 712 (10th Cir. 2005)). For the
purposes of diversity jurisdiction, choice-of-law rules
are substantive. Sylvia, 2019 WL 1384296, at *2. Accordingly, the Court will apply Kansas choice-of-law
rules for torts. Under these rules, the lex loci delicti
doctrine requires the Court to apply the law of the
state where the wrong occurred. Id. (citing Ling v. Jan’s
Liquors, 237 Kan. 629, 634 (1985)). Where the wrong
occurred is where plaintiff suffered injury. Id. (citing
Ling, 237 Kan. at 634).
Mentor asserts that Kansas law should apply to
Gale, and that Missouri law should apply to Brooks.
Mentor argues that unlike Gale, who resided in Kansas before, during and after the alleged injury, Brooks
has been a Missouri resident at all material times. Specifically, although Brooks allegedly received her implants in Kansas, all of her alleged injuries occurred
in Missouri. Mentor points to plaintiffs’ complaint,
which specifies that “soon after” surgery—that is, after she returned home to Missouri—Brooks began experiencing symptoms, and that six months after the
surgery—while still living in Missouri—she was hospitalized with sepsis and a staph infection. Complaint
(Doc. #1) ¶ 12. According to Mentor, Brooks “is not suing her plastic surgeon and makes no allegation that
any injury occurred in Kansas during her implantation surgery.” Defendant Mentor Worldwide LLC’s

App. 25
Memorandum In Support Of Rule 12(b)(6) Motion to
Dismiss Plaintiffs’ Complaint (Doc. #11) at 8. Rather,
she is suing the manufacturer of the allegedly defective implants, which caused injuries when she returned to Missouri. In response to Mentor’s motion to
dismiss for failure to state claim, plaintiffs do not argue where Brooks’ alleged injury occurred, nor do they
mention what state law applies to her claims.
For the purposes of this analysis, and absent argument to the contrary, the Court assumes that Brooks
suffered her injuries in Missouri. All of her injuries
which the complaint lists, including the physical ailments and infections, occurred after Brooks had returned to Missouri. See Ling, 237 Kan. at 634 (applying
Kansas law because injuries occurred in car accident
in Kansas even though liquor was sold in Missouri).
Accordingly, pursuant to Kansas choice-of-law rules,
Missouri law applies to Brooks’ claims, and Kansas law
applies to Gale’s claims.3
3

Because Kansas law applies to Gale’s claims, Mentor asserts that the Court should consolidate all of her claims into a
single products liability action under the Kansas Product Liability Act (“KPLA”), K.S.A. § 60–3301. Neither Mentor nor plaintiffs
explain the significance of “consolidation” for purposes of this motion to dismiss. Specifically, it does not appear that “consolidating” Gale’s claims affects the preemption issue. Even if the KPLA
“consolidates” Gale’s claims, the Court may assess her individual
theories of recovery under the KPLA. See Mattos v. Eli Lilly &
Co., No. 12-1014-JWL, 2012 WL 1893551, at *3 (D. Kan. May 23,
2012) (Court individually considered two bases for liability under
KPLA: failure to warn and design defect); see also Messer v. Amway Corp., 210 F. Supp. 2d 1217, 1236 (D. Kan. 2002), aff ’d, 106
F. App’x 678 (10th Cir. 2004) (Court individually assessed design

App. 26
II.

Federal Preemption
A. Express Preemption

Mentor asserts that the MDA expressly and impliedly preempts plaintiffs’ state tort claims. The MDA
contains an express preemption provision, which
states in relevant part as follows:
[N]o State or political subdivision of a State
may establish or continue in effect with respect to a device intended for human use any
requirement—
(1) which is different from, or in addition to,
any requirement applicable under this chapter to the device, and
(2) which relates to the safety or effectiveness of the device or to any other matter included in a requirement applicable to the
device under this chapter.
21 U.S.C. § 360k(a).
In Riegal v. Medtronic, Inc., 552 U.S. 312 (2008),
the Supreme Court established a two-part test for analyzing the express preemption provision under the
MDA. First, the Court decides whether the FDA has
established “requirements” specific to the device at issue.4 Riegal, 522 U.S. at 321-22. Second, the Court
defect and warning claims that plaintiffs brought under negligence and strict product liability theories). Therefore it is unnecessary to “consolidate” Gale’s claims in order to determine
whether the MDA preempts them.
4
The parties do not dispute that the MDA applies to Mentor’s breast implants. See Complaint (Doc. #1) ¶¶ 27-29. The MDA

App. 27
determines whether the state-law claim would impose
any requirement that “relates to the safety or effectiveness of the device” and is “different from, or in addition
to,” the federal requirement. Id. at 323. If it does so, the
MDA expressly preempts it. Id.
However, the MDA “does not prevent a State from
providing a damages remedy for claims premised on a
violation of FDA regulations.” Id. at 330. This means
that while a state law cannot impose different or additional requirements than those under federal law, it
can impose “parallel” requirements. Id. To determine
whether a state claim is parallel, the Court asks
whether defendant’s conduct allegedly violated state
law without violating federal law. See McMullen v.
Medtronic, Inc., 421 F.3d 482, 489 (7th Cir. 2005) (citing Bates v. Dow Agrosciences LLC, 544 U.S. 431, 454
(2005)); see also Wolicki-Gables v. Arrow Int’l, Inc., 634
F.3d 1296, 1300 (11th Cir. 2011); In re Medtronic, Inc.,
Sprint Fidelis Leads Prods. Liab. Litig., 623 F.3d 1200,
1205 (8th Cir. 2010); Caplinger v. Medtronic, Inc., 921
F. Supp. 2d 1206, 1213 (W.D. Okla. 2013), aff ’d, 784
F.3d 1335 (10th Cir. 2015). If defendant’s conduct violates state law but not federal law, the state law claim
is not parallel: it imposes more requirements than federal law. See Caplinger v. Medtronic, Inc., 784 F.3d
1335, 1341 (10th Cir. 2015) (MDA expressly preempts
state law design defect and breach of warranty claims
because no parallel federal requirement); see also
classifies breast implants as Class III medical devices and imposes regulations on such devices. 21 U.S.C. § 515e; 21 C.F.R.
§ 878.3530.

App. 28
McMullen, 421 F.3d at 489; see also Wolicki-Gables,
634 F.3d at 1300 (MDA expressly preempts state claim
because defendant could be liable despite complying
with FDA regulations).
B. Implied Preemption
Mentor also argues that the MDA impliedly
preempts plaintiffs’ state law claims. Under the MDA,
all actions to enforce FDA requirements concerning
medical devices “shall be by and in the name of the
United States.” 21 U.S.C. § 337(a). In Buckman Co. v.
Plaintiffs’ Leg. Comm., 531 U.S. 341 (2001), the Supreme Court held that this provision bars private litigants from seeking to enforce requirements under the
FDCA, including the MDA. 531 U.S. at 349 n.4. That
is, the MDA impliedly preempts a cause of action
that does not arise under a parallel state law, but under the federal requirements themselves. To determine whether plaintiff is attempting to enforce federal
requirements, the Court determines whether liability
would exist independently under state law, regardless of the FDCA or MDA. See id. at 353; see also
Pontious v. Medtronic, Inc., No. 11-4069-CM, 2011
WL 6091749, at *2 (D. Kan. Dec. 7, 2011) (MDA impliedly preempts claim under Kansas Consumer Protection Act (“KCPA”) because it is based on failure to
report to FDA information required by federal regulations).

App. 29
C. Preemption Applied To Plaintiffs’ Claims
While their specific allegations are somewhat difficult to follow, plaintiffs assert two overarching theories of recovery. First, they bring failure to warn claims
under theories of negligence, negligence per se5 and
strict products liability. Second, plaintiffs assert manufacturing defect claims under theories of negligence,
negligence per se6 and strict products liability. The
Court finds that the MDA either expressly or impliedly
preempts all of these claims.
(i) Failure to Warn Theories
Plaintiffs argue that Mentor’s duty to warn extended to three different parties: (1) patients, (2) the
FDA and (3) physicians.

5

Plaintiffs cannot recover under the theory of negligence per
se based on violations of the FDCA. In Kansas, negligence per se
“is limited to violations of a statute where the legislature intended
to create an individual right of action for injury arising out of a
statutory violation.” Vanderwerf v. SmithKlineBeecham Corp.,
414 F. Supp. 2d 1023, 1028 (D. Kan. 2006). The same is true in
Missouri. Weinbach v. Starwood Hotels & Resorts Worldwide,
Inc., No. 4:16CV783JCH, 2017 WL 3621459, at *5 (E.D. Mo. Aug.
23, 2017). Here, “Congress did not intend a private federal remedy for violations of the FDCA.” Vanderwerf, 414 F. Supp. 2d. at
1027. Therefore, a claim for negligence per se under Kansas law
cannot be based on an FDCA violation. Accordingly, the Court
dismisses plaintiffs’ theories of negligence per se that are based
on FDCA violations.
6
For reasons stated in footnote 5, plaintiffs cannot recover
under the theory of negligence per se based on FDCA violations.

App. 30
Plaintiffs first argue that Mentor had a duty to
warn patients of health risks associated with its implants. The Court can easily dispose of this claim.
Neither plaintiff can sue for failure to warn patients
because Kansas and Missouri have adopted the
learned intermediary doctrine, which holds that a
manufacturer’s duty to warn extends only to prescribing physicians, and not to patients. See Samarah, 70
F. Supp. 2d at 1204 (citing Humes v. Clinton, 246 Kan.
590 (1999)); see also Mitchell v. Covidien Plc, No. 140636-CV-W-FJG, 2015 WL 12804270, at *5 (W.D. Mo.
Sept. 28, 2015). Even if state law permitted plaintiffs
to bring a claim for failure to warn patients, the MDA
would expressly preempt that claim because plaintiffs
have not identified any such requirement under federal law. Accordingly, a state law mandating this warning would be adding to the federal requirements, which
the MDA expressly preempts. See Caplinger, 784 F.3d
at 1341 (MDA expressly preempts state law design defect and breach of warranty claims because no parallel
federal requirement).
Plaintiffs next argue that Mentor had a duty to
warn the FDA. Under plaintiffs’ complaint, this allegation breaks down into two separate theories: (1) Mentor had a duty to properly conduct the FDA-mandated
testing and (2) Mentor had a duty to report negative
test results to the FDA in accordance with federal regulations. Plaintiffs advance various theories about how
Mentor’s studies were flawed. The MDA impliedly
preempts these claims. Plaintiffs have not identified a
state law that required Mentor to conduct follow-up

App. 31
studies in accordance with FDA regulations, nor have
plaintiffs identified a state law that required Mentor
to report findings to the FDA. Therefore, plaintiffs are
not enforcing state law, but attempting to enforce FDA
regulations. The MDA impliedly preempts this type of
action. See Pontious, 2011 WL 6091749, at *2 (MDA
impliedly preempts KCPA claim based on failure to report to FDA information required by federal regulations).
Finally, plaintiffs argue that Mentor had a duty to
warn physicians about health risks associated with its
implants, both directly (by updating its labels) and indirectly (by reporting to the FDA). First, plaintiffs argue that after receiving pre-market approval, Mentor
had a duty to update its warning labels to include defects which it discovered during post-approval studies.
Even if state law imposed such a requirement, plaintiffs can only avoid express preemption by identifying
a parallel federal law that imposed the same requirement. See Caplinger, 784 F.3d at 1341 (MDA expressly
preempts state law design defect and breach of warranty claims because no parallel federal requirement).
Plaintiffs cannot do so, because it does not exist. In
fact, as the Tenth Circuit has explained, “once the FDA
approves a device’s label as part of the premarket approval process . . . , the manufacturer usually may not
alter the label’s warnings without prior agency approval.” Id. (citing 21 U.S.C. § 360e(d)). Therefore,
any state law claim that would have required Mentor
to make label updates would necessarily impose a
requirement beyond those imposed by federal law.

App. 32
Accordingly, the MDA expressly preempts this theory
of recovery. See id. (MDA expressly preempts state tort
duty that requires defendant to “revise label that federal regulation precludes it from revising”).
Similarly, the MDA prohibits plaintiffs from asserting that Mentor had a duty to directly warn physicians by revising its product labeling through the
Changes Being Effected (“CBE”) procedure. Plaintiffs
argue that after receiving pre-market approval, Mentor could file a CBE that would allow it to update the
labeling without FDA approval. Complaint (Doc. #1)
¶ 110. Plaintiffs’ use of the word “could” is worth noting. The CBE procedure is permissive, not mandatory.
21 C.F.R § 814.39; McMullen, 421 F.3d at 489 (21 C.F.R
§ 814.39 permits but does not require manufacturer to
revise labeling); In re Medtronic, Inc., 623 F.3d at 1205
(same). Because federal law did not require Mentor to
update its labeling, the MDA expressly preempts any
state law that would effectively require it to do so.
McMullen, 421 F.3d at 489; In re Medtronic, Inc., 623
F.3d at 1205 (“[e]ven if federal law allowed [defendant]
to provide additional warnings, . . . any state law imposing an additional requirement is preempted” under
MDA).
Second, plaintiffs suggest that Mentor had a duty
to indirectly warn physicians by reporting negative
study results to the FDA. Specifically, plaintiffs argue
that had Mentor reported adverse events to the FDA
pursuant to 21 C.F.R. § 803.50, that information would
have been available to the public, “including physicians,” and that those physicians “may” have used the

App. 33
federal database to obtain safety information on these
specific implants. Complaint (Doc. #1) ¶ 102. Plaintiffs
conclude that “it would have effectively warned physicians of those adverse events both directly and through
discussion of those events that would have followed in
the literature and at meetings.” Complaint (Doc. #1)
¶ 113.
These allegations require the Court to first assume that the FDA would have included the results in
a publicly-accessible adverse-event database, which it
is not required to do. 21 C.F.R. § 803.9(a); see Connelly
v. St. Jude Med., Inc., No. 17-2006-EJD, 2018 WL
732734, at *1 n.1 (N.D. Cal. Feb. 6, 2018) (FDA “may
disclose” adverse-event reports in database, but is not
required to do so (quoting 21 C.F.R. § 803.9(a))); Pinsonneault v. St. Jude Med., Inc., 953 F. Supp. 2d 1006,
1016 (D. Minn. 2013) (adverse-event reports not automatically made public and decision is within FDA discretion). The allegations would also require the Court
to assume that plaintiffs’ physicians would have accessed that information and relied on it to alter their
treatment decisions with plaintiffs. These allegations
are far too speculative to meet the “plausibility” standard of Twombly and Iqbal. See Iqbal, 556 U.S. at 67980; see also Twombly, 550 U.S. at 555 (to survive motion to dismiss, complaint must contain sufficient factual matter to state claim which is plausible—and not
merely conceivable—on its face).
Even if these allegations were not speculative, the
MDA would impliedly preempt this theory of recovery. Plaintiffs have not identified any state law that

App. 34
required Mentor to report adverse events to the FDA.
Accordingly, like their other claims relating to FDA reporting, plaintiffs are not seeking to enforce state law,
but are attempting to enforce federal requirements.
See Pontious, 2011 WL 6091749, at *2 (MDA impliedly
preempts KCPA claim based on failure to report information to FDA as required by federal regulations,
not under state law). The MDA impliedly preempts
this theory of recovery. Therefore, the Court dismisses
plaintiffs’ claims of failure to warn.
(ii) Manufacturing Defect Theories
Plaintiffs assert manufacturing defect claims under the theories of negligence, negligence per se and
strict products liability. Under the negligence theory,
the complaint lists plaintiffs’ allegations as follows: (1)
Mentor’s implants did not comply with FDA specifications, (2) Mentor used materials that the FDA did not
approve, (3) Mentor failed to follow good manufacturing practices, (4) Mentor failed to “properly meet the
applicable standard of care by not complying with applicable federal regulations and failing to adhere” to
FDA manufacturing protocols, (5) Mentor carelessly
and negligently sold and distributed implants in violation of applicable federal law, (6) Mentor’s implants
negligently included materials that “could not stand
up to normal usage and/or . . . differed from those
which were commercially reasonable,” (7) Mentor
failed to exercise reasonable care in inspecting and
testing the implants and (8) Mentor failed to exercise
reasonable care “in its manufacturing, quality control

App. 35
and quality assurance processes.” Complaint (Doc. #1)
¶ 120.
The MDA impliedly preempts each allegation that
relies on violations of federal law. To survive implied
preemption, a claim must be independently based on
state law. Buckman, 531 U.S. at 353. Any claim that
purports to enforce federal law must necessarily fail.
Id. Here, this includes allegations 1, 2, 4 and 5: implants not complying with FDA specifications, using
material that the FDA did not approve, failing to meet
the standard of care by not complying with FDA protocols and distributing implants in violation of applicable federal law. Complaint (Doc. #1) ¶ 120. Each of
these claims is based not on state law, but exclusively
on violations of federal law. The claims would not exist
without the FDCA, including the MDA. See id. Accordingly, the MDA impliedly preempts these claims. See
Pontious, 2011 WL 6091749, at *2 (MDA impliedly
preempts KCPA claim based on failure to report to
FDA information required by federal regulations).
Plaintiffs apparently argue that these claims are
based on state law, and that federal regulations merely
provide the appropriate standard of care. In other
words, to conjure up a parallel state claim that survives implied preemption, plaintiffs argue that Mentor
violated state law because it violated federal law. This
is a roundabout way of asserting a negligence per se

App. 36
claim based on a violation of the FDCA. As explained,
plaintiffs cannot bring such a claim under Kansas law.7
This analysis leaves the following allegations as
potential candidates for plaintiffs’ independent statelaw claim: Mentor failed to follow good manufacturing
practices during the manufacture of its implants
(claim 3), Mentor’s implants negligently included materials that “could not stand up to normal usage and/or
which differed from those which were commercially
reasonable” (claim 6), Mentor failed to exercise reasonable care in inspecting and testing of the product
(claim 7) and Mentor failed to exercise reasonable
care “in its manufacturing, quality control and quality assurance processes” (claim 8). Complaint (Doc. #1)
¶ 120. These conclusory statements are insufficient to
satisfy Twombly and Iqbal. See Iqbal, 556 U.S. at 678;
see also Twombly, 550 U.S. at 556 (pleading that offers
labels and conclusions, formulaic recitation of elements of cause of action or naked assertions devoid of
further factual enhancement will not stand).
Plaintiffs’ manufacturing defect claims under the
strict products liability theory fail for the same reasons. Under this theory, plaintiffs continue to allege
that Mentor violated state law because it violated federal law. Plaintiffs allege that Mentor’s manufacturing
process “did not comply with the FDA’s Quality System
Regulations and design control requirements.” Complaint (Doc. #1) ¶ 192. Specifically, plaintiffs assert
7

For reasons stated in footnote 5, plaintiffs cannot recover
under the theory of negligence per se based on FDCA violations.

App. 37
that various defects, including silicone leakage due to
a porous implant shell, do not comply with FDA specifications, and “therefore” constitute manufacturing
defects. Id. Here, plaintiffs are again attempting to enforce federal law. The MDA impliedly preempts these
theories of recovery. See Pontious, 2011 WL 6091749,
at *2. Plaintiffs’ remaining claims do not sufficiently
establish independent state-law claims because they
do not satisfy Twombly and Iqbal. Plaintiffs simply allege that Mentor violated state law “by placing [the implants] into the stream of commerce in a defective and
unreasonable dangerous condition.” Complaint (Doc.
#1) ¶ 193. These are conclusory allegations and are insufficient to establish a claim under state law. Therefore, the Court dismisses plaintiffs’ manufacturing
defect claims.
IT IS THEREFORE ORDERED that defendant’s Rule 12(b)(6) Motion To Dismiss Plaintiffs’ Complaint (Doc. #10) filed April 15, 2019 is SUSTAINED.
IT IS FURTHER ORDERED that defendant’s
Motion To Sever Claims And Motion To Dismiss Or
Transfer Plaintiff Brooks’ Claims For Improper Venue
(Doc. #8) filed April 15, 2019 is DISMISSED as moot.
Dated this 23rd day of September, 2019 at Kansas
City, Kansas.
s/ Kathryn H. Vratil
KATHRYN H. VRATIL
United States District Judge

App. 38
RELEVANT STATUTORY AND
REGULATORY PROVISIONS
21 U.S.C. § 337. Proceedings in name of United
States; provision as to subpoenas
(a) Except as provided in subsection (b), all such proceedings for the enforcement, or to restrain violations,
of this chapter shall be by and in the name of the
United States. Subpoenas for witnesses who are required to attend a court of the United States, in any
district, may run into any other district in any proceeding under this section.
(b)(1) A State may bring in its own name and within
its jurisdiction proceedings for the civil enforcement,
or to restrain violations, of section 341, 343(b), 343(c),
343(d), 343(e), 343(f ), 343(g), 343(h), 343(i), 343(k),
343(q), or 343(r) of this title if the food that is the subject of the proceedings is located in the State.
(2) No proceeding may be commenced by a State under paragraph (1) –
(A) before 30 days after the State has given notice to the Secretary that the State intends to
bring such proceeding,
(B) before 90 days after the State has given notice to the Secretary of such intent if the Secretary
has, within such 30 days, commenced an informal
or formal enforcement action pertaining to the
food which would be the subject of such proceeding, or
(C) if the Secretary is diligently prosecuting a
proceeding in court pertaining to such food, has

App. 39
settled such proceeding, or has settled the informal or formal enforcement action pertaining to
such food.
In any court proceeding described in subparagraph (C),
a State may intervene as a matter of right.

21 U.S.C. § 360h. Notification and other remedies
(a)

Notification

If the Secretary determines that –
(1) a device intended for human use which is introduced or delivered for introduction into interstate commerce for commercial distribution
presents an unreasonable risk of substantial harm
to the public health, and
(2) notification under this subsection is necessary to eliminate the unreasonable risk of such
harm and no more practicable means is available
under the provisions of this chapter (other than
this section) to eliminate such risk,
the Secretary may issue such order as may be necessary to assure that adequate notification is provided in
an appropriate form, by the persons and means best
suited under the circumstances involved, to all health
professionals who prescribe or use the device and to
any other person (including manufacturers, importers,
distributors, retailers, and device users) who should
properly receive such notification in order to eliminate
such risk. An order under this subsection shall require
that the individuals subject to the risk with respect to

App. 40
which the order is to be issued be included in the persons to be notified of the risk unless the Secretary determines that notice to such individuals would present
a greater danger to the health of such individuals than
no such notification. If the Secretary makes such a determination with respect to such individuals, the order
shall require that the health professionals who prescribe or use the device provide for the notification of
the individuals whom the health professionals treated
with the device of the risk presented by the device and
of any action which may be taken by or on behalf of
such individuals to eliminate or reduce such risk. Before issuing an order under this subsection, the Secretary shall consult with the persons who are to give
notice under the order.
(b)

Repair, replacement, or refund

(1)(A) If, after affording opportunity for an informal
hearing, the Secretary determines that –
(i) a device intended for human use which is
introduced or delivered for introduction into interstate commerce for commercial distribution presents an unreasonable risk of substantial harm to
the public health,
(ii) there are reasonable grounds to believe that
the device was not properly designed or manufactured with reference to the state of the art as it
existed at the time of its design or manufacture,
(iii) there are reasonable grounds to believe that
the unreasonable risk was not caused by failure of
a person other than a manufacturer, importer,

App. 41
distributor, or retailer of the device to exercise due
care in the installation, maintenance, repair, or
use of the device, and
(iv) the notification authorized by subsection (a)
would not by itself be sufficient to eliminate the
unreasonable risk and action described in paragraph (2) of this subsection is necessary to eliminate such risk,
the Secretary may order the manufacturer, importer,
or any distributor of such device, or any combination of
such persons, to submit to him within a reasonable
time a plan for taking one or more of the actions described in paragraph (2). An order issued under the
preceding sentence which is directed to more than one
person shall specify which person may decide which
action shall be taken under such plan and the person
specified shall be the person who the Secretary determines bears the principal, ultimate financial responsibility for action taken under the plan unless the
Secretary cannot determine who bears such responsibility or the Secretary determines that the protection
of the public health requires that such decision be
made by a person (including a device user or health
professional) other than the person he determines
bears such responsibility.
(B) The Secretary shall approve a plan submitted
pursuant to an order issued under subparagraph (A)
unless he determines (after affording opportunity for
an informal hearing) that the action or actions to be
taken under the plan or the manner in which such action or actions are to be taken under the plan will not

App. 42
assure that the unreasonable risk with respect to
which such order was issued will be eliminated. If the
Secretary disapproves a plan, he shall order a revised
plan to be submitted to him within a reasonable time.
If the Secretary determines (after affording opportunity for an informal hearing) that the revised plan is
unsatisfactory or if no revised plan or no initial plan
has been submitted to the Secretary within the prescribed time, the Secretary shall (i) prescribe a plan to
be carried out by the person or persons to whom the
order issued under subparagraph (A) was directed, or
(ii) after affording an opportunity for an informal hearing, by order prescribe a plan to be carried out by a
person who is a manufacturer, importer, distributor, or
retailer of the device with respect to which the order
was issued but to whom the order under subparagraph
(A) was not directed.
(2) The actions which may be taken under a plan
submitted under an order issued under paragraph (1)
are as follows:
(A) To repair the device so that it does not present the unreasonable risk of substantial harm
with respect to which the order under paragraph
(1) was issued.
(B) To replace the device with a like or equivalent device which is in conformity with all applicable requirements of this chapter.
(C) To refund the purchase price of the device
(less a reasonable allowance for use if such device
has been in the possession of the device user for
one year or more –

App. 43
(i) at the time of notification ordered under
subsection (a), or
(ii) at the time the device user receives actual notice of the unreasonable risk with respect to which the order was issued under
paragraph (1),
whichever first occurs).
(3) No charge shall be made to any person (other
than a manufacturer, importer, distributor or retailer)
for availing himself of any remedy, described in paragraph (2) and provided under an order issued under
paragraph (1), and the person subject to the order shall
reimburse each person (other than a manufacturer, importer, distributor, or retailer) who is entitled to such a
remedy for any reasonable and foreseeable expenses
actually incurred by such person in availing himself of
such remedy.
(c)

Reimbursement

An order issued under subsection (b) with respect to a
device may require any person who is a manufacturer,
importer, distributor, or retailer of the device to reimburse any other person who is a manufacturer, importer, distributor, or retailer of such device for such
other person’s expenses actually incurred in connection with carrying out the order if the Secretary determines such reimbursement is required for the
protection of the public health. Any such requirement
shall not affect any rights or obligations under any contract to which the person receiving reimbursement or
the person making such reimbursement is a party.

App. 44
(d)

Effect on other liability

Compliance with an order issued under this section
shall not relieve any person from liability under Federal or State law. In awarding damages for economic
loss in an action brought for the enforcement of any
such liability, the value to the plaintiff in such action
of any remedy provided him under such order shall be
taken into account.
(e)

Recall authority

(1) If the Secretary finds that there is a reasonable
probability that a device intended for human use
would cause serious, adverse health consequences or
death, the Secretary shall issue an order requiring the
appropriate person (including the manufacturers, importers, distributors, or retailers of the device) –
(A) to immediately cease distribution of such device, and
(B) to immediately notify health professionals
and device user facilities of the order and to instruct such professionals and facilities to cease use
of such device.
The order shall provide the person subject to the order
with an opportunity for an informal hearing, to be held
not later than 10 days after the date of the issuance of
the order, on the actions required by the order and on
whether the order should be amended to require a recall of such device. If, after providing an opportunity
for such a hearing, the Secretary determines that

App. 45
inadequate grounds exist to support the actions required by the order, the Secretary shall vacate the order.
(2)(A) If, after providing an opportunity for an informal hearing under paragraph (1), the Secretary determines that the order should be amended to include a
recall of the device with respect to which the order was
issued, the Secretary shall, except as provided in subparagraphs (B) and (C), amend the order to require a
recall. The Secretary shall specify a timetable in which
the device recall will occur and shall require periodic
reports to the Secretary describing the progress of the
recall.
(B)

An amended order under subparagraph (A) –
(i)

shall –
(I) not include recall of a device from individuals, and
(II) not include recall of a device from device
user facilities if the Secretary determines that
the risk of recalling such device from the facilities presents a greater health risk than the
health risk of not recalling the device from
use, and

(ii) shall provide for notice to individuals subject
to the risks associated with the use of such device.
In providing the notice required by clause (ii), the Secretary may use the assistance of health professionals
who prescribed or used such a device for individuals. If
a significant number of such individuals cannot be

App. 46
identified, the Secretary shall notify such individuals
pursuant to section 375(b) of this title.
(3) The remedy provided by this subsection shall be
in addition to remedies provided by subsections (a), (b),
and (c).

21 U.S.C. § 360i. Records and reports on devices
(a)

General rule

Every person who is a manufacturer or importer of a
device intended for human use shall establish and
maintain such records, make such reports, and provide
such information, as the Secretary may by regulation
reasonably require to assure that such device is not
adulterated or misbranded and to otherwise assure its
safety and effectiveness. Regulations prescribed under
the preceding sentence –
(1) shall require a device manufacturer or importer to report to the Secretary whenever the
manufacturer or importer receives or otherwise
becomes aware of information that reasonably
suggests that one of its marketed devices –
(A) may have caused or contributed to a
death or serious injury, or
(B) has malfunctioned and that such device
or a similar device marketed by the manufacturer or importer would be likely to cause or
contribute to a death or serious injury if the
malfunction were to recur, which report under
this subparagraph –

App. 47
(i) shall be submitted in accordance
with part 803 of title 21, Code of Federal
Regulations (or successor regulations),
unless the Secretary grants an exemption
or variance from, or an alternative to, a
requirement under such regulations pursuant to section 803.19 of such part, if the
device involved is –
(I)

a class III device;

***
(2) shall define the term “serious injury” to mean
an injury that –
(A)

is life threatening,

(B) results in permanent impairment of a
body function or permanent damage to a body
structure, or
(C) necessitates medical or surgical intervention to preclude permanent impairment of
a body function or permanent damage to a
body structure;
(3) shall require reporting of other significant
adverse device experiences as determined by the
Secretary to be necessary to be reported;
(4) shall not impose requirements unduly burdensome to a device manufacturer or importer
taking into account his cost of complying with such
requirements and the need for the protection of
the public health and the implementation of this
chapter;

App. 48
(5) which prescribe the procedure for making requests for reports or information shall require
that each request made under such regulations for
submission of a report or information to the Secretary state the reason or purpose for such request
and identify to the fullest extent practicable such
report or information;
(6) which require submission of a report or information to the Secretary shall state the reason or
purpose for the submission of such report or information and identify to the fullest extent practicable such report or information;
***
(b)

User reports

(1)(A) Whenever a device user facility receives or
otherwise becomes aware of information that reasonably suggests that a device has or may have caused or
contributed to the death of a patient of the facility, the
facility shall, as soon as practicable but not later than
10 working days after becoming aware of the information, report the information to the Secretary and, if
the identity of the manufacturer is known, to the manufacturer of the device. In the case of deaths, the Secretary may by regulation prescribe a shorter period for
the reporting of such information.
(B) Whenever a device user facility receives or otherwise becomes aware of –
(i) information that reasonably suggests that a
device has or may have caused or contributed to

App. 49
the serious illness of, or serious injury to, a patient
of the facility, or
(ii) other significant adverse device experiences
as determined by the Secretary by regulation to be
necessary to be reported,
the facility shall, as soon as practicable but not later
than 10 working days after becoming aware of the information, report the information to the manufacturer
of the device or to the Secretary if the identity of the
manufacturer is not known.
(C) Each device user facility shall submit to the Secretary on an annual basis a summary of the reports
made under subparagraphs (A) and (B). Such summary shall be submitted on January 1 of each year. The
summary shall be in such form and contain such information from such reports as the Secretary may require
and shall include –
(i) sufficient information to identify the facility
which made the reports for which the summary is
submitted,
(ii) in the case of any product which was the subject of a report, the product name, serial number,
and model number,
(iii) the name and the address of the manufacturer of such device, and
(iv) a brief description of the event reported to
the manufacturer.
(D) For purposes of subparagraphs (A), (B), and (C),
a device user facility shall be treated as having

App. 50
received or otherwise become aware of information
with respect to a device of that facility when medical
personnel who are employed by or otherwise formally
affiliated with the facility receive or otherwise become
aware of information with respect to that device in the
course of their duties.
***
(3)

No report made under paragraph (1) by –
(A)

a device user facility,

(B) an individual who is employed by or otherwise formally affiliated with such a facility, or
(C) a physician who is not required to make such
a report,
shall be admissible into evidence or otherwise used in
any civil action involving private parties unless the facility, individual, or physician who made the report had
knowledge of the falsity of the information contained
in the report.
(4) A report made under paragraph (1) does not affect any obligation of a manufacturer who receives the
report to file a report as required under subsection (a).
***
(6)

For purposes of this subsection:
(A) The term “device user facility” means a hospital, ambulatory surgical facility, nursing home,
or outpatient treatment facility which is not a physician’s office. The Secretary may by regulation

App. 51
include an outpatient diagnostic facility which is
not a physician’s office in such term.
(B) The terms “serious illness” and “serious injury” mean illness or injury, respectively, that –
(i)

is life threatening,

(ii) results in permanent impairment of a
body function or permanent damage to a body
structure, or
(iii) necessitates medical or surgical intervention to preclude permanent impairment of
a body function or permanent damage to a
body structure.
***
(e)

Device tracking

(1) The Secretary may by order require a manufacturer to adopt a method of tracking a class II or class
III device –
(A) the failure of which would be reasonably
likely to have serious adverse health consequences; or
(B)

which is –
(i) intended to be implanted in the human
body for more than one year, or
(ii) a life sustaining or life supporting device
used outside a device user facility.

(2) Any patient receiving a device subject to tracking
under paragraph (1) may refuse to release, or refuse

App. 52
permission to release, the patient’s name, address, social security number, or other identifying information
for the purpose of tracking.
***
(g)

Reports of removals and corrections

(1) Except as provided in paragraph (2), the Secretary shall by regulation require a manufacturer or importer of a device to report promptly to the Secretary
any correction or removal of a device undertaken by
such manufacturer or importer if the removal or correction was undertaken –
(A)
or

to reduce a risk to health posed by the device,

(B) to remedy a violation of this chapter caused
by the device which may present a risk to health.
A manufacturer or importer of a device who undertakes a correction or removal of a device which is not
required to be reported under this paragraph shall
keep a record of such correction or removal.
(2) No report of the corrective action or removal of a
device may be required under paragraph (1) if a report
of the corrective action or removal is required and has
been submitted under subsection (a).
(3) For purposes of paragraphs (1) and (2), the terms
“correction” and “removal” do not include routine servicing.

App. 53
(h) Inclusion of devices in the postmarket risk
identification and analysis system
(1)

In general
(A)

Application to devices

The Secretary shall amend the procedures established and maintained under clauses (i),
(ii), (iii), and (v) of section 355(k)(3)(C) of
this title in order to expand the postmarket
risk identification and analysis system established under such section to include and apply
to devices.
(B)

Exception

Subclause (II) of clause (i) of section
355(k)(3)(C) of this title shall not apply to
devices.
(C)

Clarification

With respect to devices, the private sector
health-related electronic data provided under
section 355(k)(3)(C)(i)(III)(bb) of this title may
include medical device utilization data, health
insurance claims data, and procedure and device registries.
(2)

Data

In expanding the system as described in paragraph (1)(A), the Secretary shall use relevant data
with respect to devices cleared under section
360(k) of this title or approved under section 360e
of this title, including claims data, patient survey

App. 54
data, and any other data deemed appropriate by
the Secretary.
***

21 U.S.C. § 360k. State and local requirements respecting devices
(a)

General rule

Except as provided in subsection (b), no State or political subdivision of a State may establish or continue in
effect with respect to a device intended for human use
any requirement –
(1) which is different from, or in addition to, any
requirement applicable under this chapter to the
device, and
(2) which relates to the safety or effectiveness of
the device or to any other matter included in a requirement applicable to the device under this
chapter.
(b)

Exempt requirements

Upon application of a State or a political subdivision
thereof, the Secretary may, by regulation promulgated
after notice and opportunity for an oral hearing, exempt from subsection (a), under such conditions as
may be prescribed in such regulation, a requirement of
such State or political subdivision applicable to a device intended for human use if –

App. 55
(1) the requirement is more stringent than a requirement under this chapter which would be applicable to the device if an exemption were not in
effect under this subsection; or
(2)

the requirement –
(A) is required by compelling local conditions, and
(B) compliance with the requirement would
not cause the device to be in violation of
any applicable requirement under this chapter.

21 C.F.R. § 803.50 If I am a manufacturer, what reporting requirements apply to me?
(a) If you are a manufacturer, you must report to us
the information required by § 803.52 in accordance
with the requirements of § 803.12(a), no later than 30
calendar days after the day that you receive or otherwise become aware of information, from any source,
that reasonably suggests that a device that you market:
(1) May have caused or contributed to a death or
serious injury or
(2) Has malfunctioned and this device or a similar device that you market would be likely to cause
or contribute to a death or serious injury, if the
malfunction were to recur.

App. 56
(b) What information does FDA consider “reasonably
known” to me?
(1) You must submit all information required in
this subpart E that is reasonably known to you.
We consider the following information to be reasonably known to you:
(i) Any information that you can obtain by contacting a user facility, importer, or other initial reporter;
(ii)

Any information in your possession; or

(iii) Any information that you can obtain by analysis, testing, or other evaluation of the device.
(2) You are responsible for obtaining and submitting to us information that is incomplete or missing from reports submitted by user facilities,
importers, and other initial reporters.
(3) You are also responsible for conducting an investigation of each event and evaluating the cause
of the event. If you cannot submit complete information on a report, you must provide a statement
explaining why this information was incomplete
and the steps you took to obtain the information.
If you later obtain any required information that
was not available at the time you filed your initial
report, you must submit this information in a supplemental report under § 803.56 in accordance
with the requirements of § 803.12(a).

